  Office of Inspector General
      Audit Report



  WEAKNESSES IN THE DEPARTMENT’S
DISADVANTAGED BUSINESS ENTERPRISE
 PROGRAM LIMIT ACHIEVEMENT OF ITS
           OBJECTIVES
           Office of the Secretary
        Report Number: ZA-2013-072
         Date Issued: April 23, 2013
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Weaknesses in the Department’s                                           Date:    April 23, 2013
           Disadvantaged Business Enterprise Program Limit
           Achievement of Its Objectives
           Report No. ZA-2013-072

  From:    Calvin L. Scovel III                                                          Reply to
                                                                                         Attn. of:   JA-60
           Inspector General

    To:    Deputy Secretary

           The Department of Transportation’s (DOT) Disadvantaged Business Enterprises
           (DBE) program was created to help socially and economically disadvantaged
           individuals 1 who own and control small businesses to participate in contracting
           opportunities within DOT financial assistance programs. DOT distributed over
           $4 billion to DBEs via its recipients 2 in fiscal year 2009 and almost $3 billion in
           fiscal year 2010. However, during that period, DBE fraud and abuse cases
           increased significantly, making up nearly 25 percent of OIG active investigations
           for procurement and grant fraud in fiscal year 2010. Currently, DBE cases
           represent 29 percent of OIG active procurement and grant fraud investigations.

           The DBE program’s integrity depends in large part upon the establishment of
           systematic procedures to ensure that only certified firms are eligible to participate
           in the program. DOT’s DBE regulations place this responsibility primarily on
           State transportation agencies. However, the program also requires DOT
           leadership, guidance, and oversight. Accordingly, our objectives were to assess the
           effectiveness of the Department’s management and implementation of its DBE
           program. Specifically, our audit objectives were to determine whether (1) the
           Department 3 provides adequate DBE program management, (2) DOT’s Operating

           1
             49 CFR § 26.5 states a socially and economically disadvantaged individual means any individual who is a citizen (or
           legal, permanent resident) of the United States and who is (1) any individual who a recipient finds to be socially and
           economically disadvantaged on a case-by-case basis; or (2) any individual in the following groups: Black Americans,
           Hispanic Americans, Native Americans, Asian Pacific Americans, Subcontinent Asian Americans, Women, or any
           additional group designated as socially and economically disadvantaged by the Small Business Administration (SBA).
           2
             DBE program recipients can include State highway agencies, airports, transit authorities, and other State and local
           agencies that receive DOT funds.
           3
             Our use of the term “Department” in this report refers to the U.S. Department of Transportation, Office of the
           Secretary (OST).
                                                                                                          2


Administrations and recipients sufficiently oversee and implement the DBE
program, and (3) the Department achieves its program objective to help develop
DBEs to succeed in the marketplace.

We conducted this review between April 2011 and October 2012 in accordance
with generally accepted Government auditing standards. To conduct our work, we
interviewed Department representatives from offices that have roles related to the
DBE program: the Office of Small and Disadvantaged Business Utilization
(OSDBU), the Departmental Office of Civil Rights (DOCR), and the Office of
General Counsel (OGC). We also interviewed representatives from each of DOT’s
three Operating Administrations that are required to participate in the program: the
Federal Transit Administration (FTA), the Federal Aviation Administration
(FAA), and the Federal Highway Administration (FHWA). 4 Finally, we visited or
contacted 15 States. We conducted site visits at six randomly selected States 5 and
surveyed nine additional randomly selected States. As part of this audit, we
selected a statistical sample of 121 DBE firms working on active federally funded
projects, which allowed us to project the total amount of fiscal year 2009 DBE
funds that could have been put to better use and the total amount of fiscal year
2009 DBE funds that was unsupported. Exhibit A further details our scope and
methodology.

RESULTS IN BRIEF
The Department does not provide effective program management for the
multibillion-dollar DBE program. The Department has not issued comprehensive,
standardized DBE guidance or provided sufficient training to the recipients
responsible for implementing the nationwide DBE program. Of the 15 States we
surveyed, 14 States said they lacked clear DBE guidance from the Department,
and 12 States said the Department did not provide adequate DBE training. In the
absence of sufficient guidance or training, it is especially critical that the
Department provide effective program management to help recipients and
Operating Administrations achieve the goals of the program and comply with
DBE regulations. Although the Department has strengthened its commitment to
the program and taken some actions to improve program administration, the
Department has not established a single line of accountability for the program,
such as by assigning overarching DBE program management to a single
Department level entity. Instead, it takes a fragmented approach by assigning only
limited DBE program management responsibilities to three separate Departmental
offices. Furthermore, these three offices do not fully implement even the limited
responsibilities they have been assigned. For example, the DOCR does not fulfill

4
  FHWA’s awards represented nearly 80 and 65 percent of the Department’s total DBE dollars in 2009 and 2010,
respectively.
5
  One of the six states was the District of Columbia.
                                                                                                                       3


its delegated responsibility6 to perform oversight reviews of the Operating
Administrations and has mostly limited its DBE involvement to reviewing and
adjudicating DBE certification appeals cases. DOT’s lack of a single line of
accountability for the DBE program makes it difficult for the Department to
(1) track whether the DBE program is achieving its objectives, (2) accurately
account for billions in annual DBE spending, and (3) ensure adequate
communication with State and local recipients responsible for program
implementation.

Operating Administrations and recipients do not adequately oversee or implement
the DBE program, partly due to the Department’s lack of integrated program
management and standardized guidance on DBE practices. Operating
Administrations’ reviews of recipients’ DBE practices are neither consistent nor
comprehensive, leaving recipients’ certification and contract compliance
weaknesses unaddressed. Consequently, the State certifying agencies that we
reviewed do not always adequately verify that firms applying for DBE
certification meet the regulatory eligibility requirements. Based on our review, we
estimate that $124 million of the $4.1 billion in DBE funds distributed across
52 U.S. States and territories 7 in fiscal year 2009 8 could have been put to better
use if DOT and its recipients had implemented better internal controls over their
certification processes. 9 In addition, most recipients do not provide sufficient
oversight at project sites to ensure that DBEs complete the work according to
contract terms.

The Department has limited success in achieving its program objective to develop
DBEs to succeed in the marketplace because recipients place more emphasis on
getting firms certified as DBEs rather than assisting them to identify opportunities
and to market themselves for DBE work on federally funded projects. As a result,
the majority of certified DBE firms from the six States we visited—especially
smaller firms—have been unsuccessful in obtaining federally funded contracts.
For example, at the 6 States we visited, less than 20 percent of the 7,689 certified
firms actually received work on federally funded projects. The recipients
recognize this issue with DBE utilization; however, recipients have limited
resources to help DBEs develop and obtain work as DBEs. In addition, the
Department does not require recipients to actively track or report utilization data

6
  Organization and Delegation of Powers and Duties, Final Rule, 77 Fed. Reg. 49964, 49974-5 (Aug. 17, 2012)
(amending 49 CFR § 1).
7
  The universe included Puerto Rico but did not include the Virgin Islands because it did not report DBE expenses in
fiscal year 2009.
8
  We based our projections on fiscal year 2009 amounts because these were the most current and complete data the
Department was able to provide at the onset of our audit.
9
  This estimate is based on our determination that 2 firms from our random sample of 121 currently certified firms had
failed to meet eligibility requirements for continued DBE certification in fiscal year 2009 but collectively received over
$5.4 million in DBE awards and payments that year. Our estimate has an actual lower limit of $5 million and a 90-
percent upper confidence limit of $329 million, with a best estimate of $124 million.
                                                                                                                  4


showing the number of DBEs actually receiving work on federally funded DBE
projects. Moreover, unlike SBA’s 8(a) small business development program, the
DBE program does not have a term limit on participation, so there is little
incentive for firms to grow beyond the program. 10 In the 6 States we visited, 55 of
the 121 randomly selected DBEs working on active federally funded contracts
have been certified DBEs for over 10 years. 11

We are making recommendations to enhance DOT’s DBE program management,
improve the implementation and oversight of the program, and help ensure that
DBE funds are used to meet program objectives.

BACKGROUND
The Department’s DBE program began in 1980 as a minority and women’s
business enterprise program under the authority of the Civil Rights Act of 1964.
The Surface Transportation Assistance Act of 1982 contained the first statutory
provision authorizing a DOT DBE program. Today the program is carried out by
State and local transportation agencies under the rules and guidelines established
in Title 49 CFR Part 26. 12 In addition, DOT’s regulatory delegations 13 assign
implementation of all civil rights programs—including the DBE program—to the
Operating Administrations, and certain elements of program accountability to
DOCR, OGC, and OSDBU. 14

The DBE program is unique to the transportation sector and covers contracts
awarded by recipients, which can include State highway agencies, airports, transit
authorities, and other State and local agencies that receive DOT funds. As required
by law, each recipient receiving certain types of Federal transportation funding
from DOT must implement a DBE program and establish an annual DBE
participation goal. 15

The DBE program has seven stated objectives, with DOT identifying three as
primary: (1) providing a level playing field so DBEs can fairly compete for DOT-
assisted projects, (2) ensuring that only eligible firms become certified as DBEs,
and (3) assisting in the development of DBE firms so that they can compete
10
   SBA’s 8(a) Business Development Program was created to help small and disadvantaged businesses compete in the
marketplace by focusing on providing business development support to produce businesses that continue to thrive in a
competitive environment. Businesses “graduate” from the 8(a) Business Development Program when the program term
expires after 9 years.
11
   The 121 DBEs’ certification files we reviewed were randomly selected out of a total universe of 1,461 DBEs who
were working on active federally funded contracts in the 6 sample states we visited.
12
   FAA also maintains a separate DBE program for airport concessions under 49 CFR Part 23.
13
   49 CFR § 1.
14
   In August 2012, the Department issued a Final Rule, 77 Fed. Reg. 49964, which amended its regulatory delegations
to modify the DOCR’s, OGC’s, and OSDBU’s responsibilities pertaining to the DBE program; however, the changes
do not assign overall program accountability to any one office.
15
   49 CFR § 26.3; 49 CFR § 26.21; and 49 CFR §26.45.
                                                                                              5


outside the DBE program. Once a DBE firm is certified, it can compete for
contract awards as a DBE, which can provide a competitive advantage over non-
DBE firms. DBE work is mostly subcontract work for a non-DBE prime
contractor that commits to spend an established percentage of funding on DBE
subcontractors.

DOT, State, and local transportation agencies share unique roles and
responsibilities in administering the DBE program (see figure 1).

Figure 1. DOT’s DBE Program Oversight Structure

                  The Department (Office of the Secretary)
   Office of Small and            Office of Civil Rights      Office of General Counsel
Disadvantaged Business                   (OCR)                          (OGC)
  Utilization (OSDBU)




   Federal Aviation                Federal Highway               Federal Transit
 Administration (FAA)            Administration (FHWA)         Administration (FTA)




   FAA regional offices            FHWA division offices         FTA regional offices




 State and local recipients      State and local recipients    State and local recipients
 (typically aviation agencies)    (typically State DOTs or     (typically transit agencies)
                                  highway administrations)




• DOT’s Office of the Secretary’s role includes developing the rules and
  regulations for the DBE program, providing guidance to ensure compliance,
  and considering appeals from State certification decisions.
                                                                                                                      6


• FHWA, FTA, and FAA—along with their regional or division offices—are
  responsible for providing oversight to ensure recipients follow the regulations.
  Oversight includes performing compliance reviews, tracking recipients’ DBE
  participation reports, approving recipients’ DBE goals, and enforcing sanctions
  for DBE noncompliance.

• State and local transportation agencies, the recipients, implement their DBE
  programs pursuant to the DBE regulations. This includes certifying the
  eligibility of DBE firms, 16 overseeing DBE contract performance, and
  establishing contract-specific DBE goals.

On January 28, 2011, DOT issued a Final Rule, with the intent to improve DBE
program oversight and increase accountability for meeting DBE participation
goals. 17 Some revisions did not become effective until 2012.

THE DEPARTMENT DOES NOT PROVIDE EFFECTIVE DBE
PROGRAM MANAGEMENT
The Department does not provide effective program management for its
multibillion-dollar DBE program. The Department has not issued comprehensive,
standardized DBE guidance or provided sufficient training to the recipients
responsible for implementing the nationwide DBE program. In the absence of
sufficient guidance or training, it is especially critical that the Department provide
effective program management to help recipients and Operating Administrations
achieve the goals of the program and comply with DBE regulations. Although the
Department has strengthened its commitment to the program and taken some
actions to improve program administration, the Department has not established a
single line of accountability for the program and instead takes a fragmented
approach by assigning only limited DBE program management responsibilities to
three separate Departmental offices. DOT’s lack of a single line of accountability
for the DBE program makes it difficult for the Department to (1) track whether the
DBE program is achieving its objectives, (2) accurately account for billions in
annual DBE spending, and (3) ensure adequate communication with State and
local recipients responsible for program implementation.




16
   49 CFR Parts 23 and 26 place primary responsibility for the certification process upon State transportation agencies,
which are to ensure only bona fide small firms, owned and controlled by a socially and economically disadvantaged
individual(s), are certified.
17
   These revisions included increasing a DBE owners’ personal net worth threshold, adding new post-award oversight
duties, and expediting out-of-state DBE certifications.
                                                                                                         7


The Department Lacks Comprehensive, Standardized DBE Program
Guidance and Sufficient Training
The Department offers limited standardized guidance and training to the recipients
responsible for implementing the nationwide DBE program. DBE officials for
14 of the 15 States we contacted stated that they lack clear and comprehensive
guidance from the Department for the DBE program. For example:

• Officials for five of the six States we visited said they needed more guidance
  on verifying personal net worth when determining certification eligibility. DBE
  regulations require that a DBE firm owner must not have a personal net worth
  that exceeds $1.32 million. Adequate guidance is essential since certification
  staffs are not required to have financial training. Without guidance or training,
  certification staff could miscalculate firm owners’ net worth, allowing
  unqualified DBEs to participate in the program.

• Officials from 11 of the 15 States we contacted said they needed overall
  guidance on implementing the DBE Final Rule, which DOT issued in January
  2011. According to State officials, the only available training on the Final Rule
  has been limited to either webinars or training at regional symposiums. In
  addition, the training has not provided comprehensive guidance on all changes
  included in the Final Rule.

The Department’s guidance currently consists of the DBE regulations coupled
with a list of “Q&As” posted on its DBE Web site. A senior official in OGC stated
that the regulations and “Q&As” provide the information needed to implement the
program. This senior official stated that the Department also provides guidance on
a case-by-case basis in response to direct questions—through emails 18 or
conference calls to individual recipients. However, officials at the States we
contacted reported that the Department can be slow to respond, and hesitant to
provide definitive answers or issue written guidance. Furthermore, individual
conference calls and emails do not provide for standardized documented guidance
or training, a concern the Government Accountability Office (GAO) has identified
with respect to this program several times starting in 1992. 19

In the absence of departmentwide best practices or guidance, Operating
Administrations occasionally issue informal, internal DBE guidance to their
recipients. While the Operating Administrations are responsible for the oversight
of their recipients’ DBE program implementation, DBE regulations do not permit
18
   OGC stated these emails are “not readily retrievable,” so we could not verify whether guidance given was
comprehensive.
19
   GAO/RCED-92-148, Highway Contracting: Disadvantaged Business Eligibility Guidance and Oversight are
Ineffective, September 1992; GAO/RCED-94-168, Highway Contracting: Disadvantaged Business Program Meets
Contract Goal, but Refinements are Needed, August 1994; and GAO-01-586, Disadvantaged Business Enterprises:
Critical Information Is Needed to Understand Program Impact, June 2001.
                                                                                   8


the Operating Administrations to issue official program guidance without the
Secretary’s or OGC’s approval. For example, FAA reports it is developing a Best
Practices in Monitoring and Enforcement tool for its recipients. However, this
guidance is informal, specific to FAA, and lacks OGC approval. Accordingly, this
guidance may not express the official views of the Department and could conflict
with the Department’s interpretations of the rules.

Additionally, 12 of the 15 State DBE officials we spoke to stated the Department
does not provide adequate training for the DBE program. Although Department
officials state that they provide training to recipients, we found it was infrequent
and not comprehensive. For example, in fiscal years 2010 and 2011, the
Department hosted 7 “in-person” training events, totaling 58 hours. However, the
majority of those hours (83 percent) was limited to certification staff at just
5 States and only covered certification topics.

Although the Department’s training has been limited, the Operating
Administrations have conducted a significant number of training sessions for their
individual recipients. For example, in 2010 and 2011, FAA conducted
35 DBE training events, and FTA conducted or participated in 41 events such as
panel discussions, conferences, and webinars. FHWA holds multiple in-person
training events in each of the States annually for its recipients. For example, in
2010 and 2011, FHWA’s Florida Division Office conducted 34 DBE training
events for its recipients, and the Michigan Division Office conducted 11 events for
its recipients.

While Operating Administration training tools are good efforts, these events are
often limited to specific Operating Administration recipients and require
significant resources. In addition, the Department does not review or approve the
Operating Administrations’ training efforts and resources, so it cannot assure the
accuracy and consistency of the training. Recipients have stated that they would
prefer standardized Departmental training. According to the recipients, each
Operating Administration has its own unique requirements and interpretations of
the DBE program. Additionally, 10 out of the 15 States we contacted reported a
critical need for more consistency among recipient DBE practices.

The Department Has Not Established a Single Line of Accountability
To Manage Its Multibillion-Dollar DBE Program
In the absence of sufficient guidance or training, it is especially critical that the
Department provide effective program management to help recipients and
Operating Administrations achieve the goals of the program and comply with
DBE regulations. According to DOT offices and individuals involved in the DBE
program, the current administration has focused on the program more than past
administrations. The Department has stated its commitment to the program in
                                                                                                                    9


testimony before Congress as well as through letters from the Secretary and
Deputy Secretary to each governor and State DOT administrator. The Operating
Administrations have also stressed to recipients the importance of setting and
meeting DBE participation goals and indicated they will closely monitor recipients
that do not meet goals. Additionally, the Department created a high-level DBE
Task Force 20 in March 2010 that meets monthly to discuss the program and
develop long- and short-term recommendations to improve its administration. In
January 2012, DOCR implemented a web-based DBE certification and de-
certification tracking system that is accessible to all States and may prove
beneficial to the DBE program. 21

Despite these actions, the Department has not established a single line of
accountability for the program, such as assigning overarching DBE program
management to a single Department level entity. Instead, it takes a fragmented
approach by assigning only limited DBE program management responsibilities to
three separate Departmental offices. 22 Furthermore, these three offices do not fully
implement even the limited responsibilities they have been assigned.

The Office of Management and Budget (OMB) and GAO emphasize that
organizational structure, leadership, accountability, and communication are
essential for effective management of major programs and can enable staff across
an agency to work together in an integrated fashion. 23 In particular, effective
departmental program management will provide direction and vision, facilitate the
development of common processes and approaches, and identify and assess the
risk that program objectives will not be met.

However, the Department does not provide effective program management
because it has not assigned a single line of program accountability to any
Department level entity. Instead, the Department’s regulatory delegations assign
limited aspects of DBE program responsibility to three separate offices—OSDBU,
DOCR, and OGC. 24 For example, OSDBU has been delegated responsibility for
ensuring that the DBE program and its policies are developed in a fair, efficient,
and effective manner. However, DOCR is delegated responsibility for providing
policy guidance and oversight to the Operating Administrations on the
20
   The DBE Task Force is chaired by the Director of OSDBU and composed of the heads of the OGC, Government
Affairs, DOCR, FHWA, FAA, FTA, Federal Railroad Administration, and their respective DBE program directors.
21
   We did not validate the functionality of this tracking system. As of the end of January 2012, the DOCR reported that
the system was operational but still experiencing problems that needed to be corrected.
22
   Organization and Delegation of Powers and Duties, 49 CFR § 1.
23
   GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, November 1999; GAO-01-
1008G. Internal Control Management and Evaluation Tool, August 2001; GAO-05-218G. Framework for Assessing
the Acquisition Function at Federal Agencies, September 2005; OMB Circular A-123 Management Accountability and
Controls, Revised June 21, 1995; OMB Memorandum Conducting Acquisition Assessments under OMB Circular A-
123, May 21, 2008.
24
   Organization and Delegation of Powers and Duties, Final Rule, 77 Fed. Reg. 49964, 49975 (Aug. 17, 2012)
(amending 49 CFR § 1).
                                                                                                              10


implementation and enforcement of program requirements. As a result, the
program’s management structure is fragmented without ultimate accountability for
overall program management assigned to one entity.

In addition, not all of the delegated responsibilities are being carried out in
practice (see table 1). For example, the Department’s delegations assign OSDBU
with ensuring that the Department’s small and disadvantaged policies and
programs, including the DBE program, are developed in fair, efficient, and
effective manner. However, OSDBU officials stated that they have limited
involvement with the DBE program and mainly give technical assistance, provide
financial services, and conduct outreach to stakeholders and Congress. In addition,
OSDBU did not provide primary policy direction for the DBE program, which
was a delegated responsibility in the regulation prior to the August 2012
revisions. 25 Furthermore, while DOCR has been delegated responsibility for
providing guidance to and reviewing Operating Administrations’ DBE
implementation and enforcement practices, DOCR’s only DBE-related activities
involve reviewing and adjudicating certification appeals cases. DOCR has recently
been working with the Operating Administrations to develop a plan to document
the basic monitoring and enforcement responsibilities of the Operating
Administrations and recipients. However, the outcome of these recent planning
efforts and DOCR’s actual role in providing oversight of the Operating
Administrations’ program enforcement has yet to be determined.




25
  Organization and Delegation of Powers and Duties to the Director of the OSDBU, Final Rule, 60 Fed. Reg. 2889-01,
2890 (January 12, 1995).
                                                                                                  11


Table 1. Department’s Office of the Secretary’s DBE Roles
Secretary’s            Delegated Authority and DBE
Office (OST)           Regulatory Role(s)                           Current Role(s) in Practice
Office of Small and    • Ensures the Department’s small and         • The “face” of the DBE
Disadvantaged            disadvantaged policies and programs          program: provides technical
Business Utilization     are developed in fair, efficient, and        and financial assistance and
(OSDBU)                  effective manner                             conducts program outreach
                       • Provides opportunities, technical            to stakeholders and
                         assistance, and financial services to        Congress
                         the small and disadvantaged business       • Hosts DOT’s DBE Web site
                         community
Department Office of   • Conducts all stages of the formal          • Reviews and decides on
Civil Rights (DOCR)      certification appeals process               DBE certification appeals
                       • Provides guidance to the Operating         • Develops a document
                         Administrations on the implementation       outlining monitoring and
                         and enforcement of DBE regulations          enforcement responsibilities
                       • Periodically evaluates the Operating        for Operating Administrations
                         Administrations’ enforcement of the         and recipients
                         program
Office of General       • Is responsible for DBE legislation and   • Reviews and approves all
Counsel (OGC)             regulations                                guidance and interpretations
                        • Conducts all rulemaking proceedings        of DBE regulations
                        • Review legal aspects of legislative      • Drafts and issues rules that
                          matters                                    amend DBE regulations
                        • Reviews and approves all guidance        • Defends DOT in DBE-related
                          issued by the Department                   court proceedings
Source: OIG analysis

GAO first identified DOT’s lack of centralized DBE program management and
accountability in 1992 26 and recommended that DOT designate a lead office for
the program to improve communication and coordination. GAO emphasized the
need for a lead office to develop, update, and coordinate the dissemination of
policy and guidance, which the Department has not accomplished.

Although the DBE program is unique to DOT, other Federal agencies with unique,
small and disadvantaged business programs demonstrate the best practice of
assigning explicit, overall accountability and leadership to a central office. For
example, the Environmental Protection Agency (EPA) manages its own DBE
program established under 40 CFR Part 33. The EPA delegated central
management of its DBE program to its Office of Small Business Programs, which
is part of the Office of the Administrator. EPA’s Office of Small Business
Programs is accountable for carrying out explicit responsibilities as part of its
overall management of the program. Some of these responsibilities include
developing and monitoring program policy and procedures; providing outreach
and training to internal and external program stakeholders; providing technical and

26
   GAO/RCED-92-148, Highway Contracting: Disadvantaged Business Eligibility Guidance and Oversight are
Ineffective, September 1992.
                                                                                            12


programmatic assistance to disadvantaged businesses; and collecting, compiling,
and analyzing data on the utilization of disadvantaged businesses under the
Agency’s DBE program.

Although the Department has not established formal overall program management
accountability, until recently one senior official in the Department’s OGC
assumed an unofficial leadership role over the program. This senior official had
over 30 years experience working on the program and drafting its regulations, and
was considered the unofficial “go-to” person for answers to DBE-related
questions. However, the DBE program comprised a fraction of this individual’s
responsibility because it was not his main job function. In August 2012, this
official retired from the Department with no clear candidate to immediately
assume the unofficial leadership role for the program. This loss of institutional
knowledge and self-initiated leadership for the DBE program underscores the need
for DOT to ensure the program has established accountability and leadership, and
sufficient resources to provide adequate guidance, internal controls, and program
management.

The Department Does Not Assess Its Achievement of Significant DBE
Objectives
The Department does not use program assessment methods, such as performance
measures, to manage and improve the DBE program and determine whether the
overall program is meeting its stated objectives. GAO identifies good internal
control management as having effective procedures in place to monitor the results
of an agency’s programs. 27 According to GAO, meaningful metrics are an
important tool for an agency to assess the effectiveness of a program and provide a
foundation for continuous improvement. While the Operating Administrations
assess some objectives specifically for their recipients, such as their progress
toward meeting DBE goals, there is no overall assessment at the Department level
for the success of the program as a whole. For example, the Department cannot be
sure that the program meets a key objective to assist in developing DBEs to
compete successfully outside the program because it does not track how many
DBE firms graduate from the program. In 1994, GAO reported on this issue,
recommending to the Secretary that DOT develop performance measures to
evaluate the progress of the DBE program in helping to develop firms to compete
outside the program. 28




27
  GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, November 1999.
28
   GAO/RCED-94-168, Highway Contracting: Disadvantaged Business Program Meets Contract Goal, but
Refinements are Needed, August 1994.
                                                                                                             13


The Department Lacks Accurate Spending and Award Data for the DBE
Program
The Department does not track and, therefore, cannot account for its billions of
dollars in annual DBE awards and payments. For example, when we requested
DBE award and payment data for fiscal years 2007 through 2010, the Department
spent several weeks contacting FHWA, FAA, and FTA to obtain this information.
Transparency in how Federal dollars are spent in the DBE program is critical for
ensuring accountability in the program and ensuring the effective and efficient
performance and management of the program. In addition, the Operating
Administrations’ annual DBE awards and payments data, which the Department
relies upon, are not verified for accuracy. For example, FHWA’s National Review
Team 29 found that New York State DOT’s 2010 Uniform Report of DBE
Commitment/Awards and Payments submitted to FHWA had math errors for
dollar amounts and the number of contractors reported. Further, not all recipients
have fully functioning systems in place to track payments and awards
electronically, elevating the risk of human error with manual entry systems. A
senior Department official also reported that the Operating Administrations are not
collecting the same payment and award data or reporting them in the same
manner. For example, FTA started collecting payment and award data
electronically in 2011 and admitted that past data were not validated or of “sound
quality.” Without accurate data on its DBE outlays, the Department cannot
determine whether it achieves its DBE goals.

The Department Has Limited Communication With Recipients
The Department has limited communication with State and local recipients
regarding the DBE program. According to Federal internal control standards,
effective communication ensures adequate means of information exchange with
external stakeholders that may have significant impact on the agency’s ability to
achieve its goals. 30 However, officials for all 15 States we spoke to say that they
have limited or no communication with DOT Headquarters about the DBE
program. The States’ contact with the Department was mostly limited to the senior
official in OGC, who was until recently the Department’s unoffical DBE expert, or
to officials from DOCR on matters related to certification.




29
   FHWA established the National Review Team to help its Division Offices provide the level of accountability and
transparency called for under the American Recovery and Reinvestment Act of 2009 (ARRA). The team conducts
independent assessments of states’ management of ARRA funds, reviewing state processes and compliance with
Federal requirements in six key risk areas, one of which is DBE.
30
   GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, November 1999.
                                                                                                                     14


OPERATING ADMINSTRATIONS AND RECIPIENTS DO NOT
ADEQUATELY OVERSEE OR IMPLEMENT THE DBE PROGRAM
Although the Operating Administrations are responsible for oversight of DBE
recipients’ programs, the Department does not regularly assess the effectiveness of
the Operating Administrations’ oversight practices. Operating Administration
oversight responsibilities are carried out inconsistently, and most divisions and
regions do not perform reviews of DBE certification practices and project sites.
We identified weak DBE certification and contract oversight practices at States,
which increase the risk that ineligible firms will be certified as DBEs and allowed
to work on DBE contracts and subcontracts.

Operating Administrations Do Not Ensure Effective Program
Implementation
The Operating Administrations do not ensure that their recipients effectively
implement the DBE program. Each Operating Administration uses different
practices to oversee its recipients’ DBE programs (see table 2), such as
compliance and Unified Certification Programs (UCP) 31 reviews. These varying
oversight practices and reviews are limited in scope and not performed
consistently.

Table 2. Operating Administrations’ Oversight of DBE Recipients
 FAA
 Current Oversight Actions or Practices                        Weaknesses in Actions or Practices
 Has four managers and staff at Headquarters                   FAA’s resources to provide DBE oversight are
 (HQ) who spend at least half their time on the                limited given that it has about 1,000 recipients.
 DBE program and eight full-time DBE staff
 mainly based in Los Angeles.
 Los Angeles team performed seven                              Only 7 compliance reviews in 2011 even
 compliance reviews in 2011 to identify                        though FAA has about 1,000 DBE recipients.
 recipient practices and collect data to develop               These reviews omit certification file reviews
 future guidance. These are fact-finding reviews               and project worksite visits.
 rather than assessments.
 Currently developing a DBE Toolkit and best                   This effort will offer future benefits, but is not
 practices document for its recipients.                        yet complete.




31
  49 CFR Part 26 requires each State to establish and submit a UCP to the Secretary of Transportation for approval. A
UCP is a signed agreement among a State’s recipient agencies that provides “one-stop shopping” to applicants for
certification, requiring an applicant to apply only once for a DBE certification that must be honored by all recipients in
the State. A State’s UCP agreement may consist of one or multiple DBE certification agencies; however, if multiple
agencies are involved, certification granted by one State UCP agency must be honored by all agencies in the State.
                                                                                                             15




 FHWA
 Current Oversight Actions or Practices                   Weaknesses in Actions or Practices
 Has 1 full-time DBE Manager at HQ, who                   Only one civil rights officer per Division Office
 coordinates with civil rights officers at FHWA’s         oversees the State’s implementation of its civil
 52 State Division Offices.                               rights programs, including DBE. Competing
                                                          duties limit time available for DBE oversight.
 Began requiring Division Offices to submit               No minimum oversight requirements or
 annual DBE oversight plans in 2010.                      evaluation of oversight implementation. Each
                                                          Division Office determines its own oversight
                                                                                                          32
                                                          practices based, in part, on its risk analysis.
                                                          Therefore, some Division Offices do not review
                                                          certification files or visit project worksites.
 Division Offices conduct triennial reviews of            The triennial reviews are not compliance
 five major Federal-aid civil rights programs,            reviews; rather, these assessments collect
 which include DBE.                                       data to more accurately determine State
                                                          transportation agencies’ civil rights program
                                                          implementation and to allocate resources.
                                                          These assessments are not comprehensive
                                                          and omit certification file reviews.
 Each Division Office completes an annual risk            The Division Offices’ risk assessments are
 assessment of its internal controls and                  intended to comply with OMB A-123 internal
 business activities to identify its top risks.           controls requirements and are not a function of
                                                          the OCR. The assessments can identify a
                                                          division’s DBE program as high-risk, but do not
                                                          require reviews or follow ups.


 FTA
 Current Oversight Actions or Practices                   Weaknesses in Actions or Practices
 Has one full-time DBE staff member at HQ with            Only one civil rights specialist per regional
 a dedicated contractor for compliance, UCP,              office oversees all of the region’s civil rights
 and triennial reviews.                                   programs, limiting time available for DBE
                                                          oversight. Recipients report limited contact with
                                                          FTA regional offices nationwide.
 Contractor performed 13 compliance reviews               Only 13 reviews even though FTA has about
 in fiscal year 2011.                                     600 DBE recipients. Of the 13 reviews, only
                                                          4 were finalized. The reviews also omit project
                                                          worksite visits.
 Only Operating Administration that conducts              Only three of the six UCP reviews conducted in
 UCP reviews. FTA also performs triennial                 fiscal year 2011 were finalized. DBE is also
 reviews of grantee performance and                       just 1 of 24 areas that FTA’s triennial reviews
 adherence to current FTA requirements.                   examine. The triennials do not require
                                                          certification file reviews.
Source: OIG analysis

32
   FHWA Headquarters and each Division Office conduct and submit annual risk profiles to OST to support the
Department’s compliance with OMB A-123 internal controls requirements. The Risk Profile provides an assessment of
internal controls, business activities, and top risks.
                                                                                                                   16


The Department’s DBE regulations and limited guidance do not clearly define the
Operating Administrations’ oversight responsibilities. For example, the DBE
regulations do not require the Operating Administrations to review recipients’
certification practices, such as reviewing certification files to verify that State
certifying agencies obtain sufficient supporting information or are performing
required on-site reviews of a firm’s business to ensure DBEs’ eligibility. We also
found Operating Administrations’ program compliance reviews excluded on-site
project visits and frequently involved few or no certification file reviews.

For example, FAA’s Office of Civil Rights performed a compliance review of a
$4.2-million New York DBE subcontract 33 but did not review the associated DBE
certification files. As a result, FAA’s review failed to detect that the subcontractor
was no longer an eligible DBE when the contract was awarded. Prior to award, the
original owner had died, and the firm had not been certified under its new owner.
Additionally, the firm had not submitted over 6 years of annual no change
affidavits, which DBE regulations require to remain in good standing with the
program. 34 Despite these circumstances affecting the firm’s eligibility, the firm
was never removed from the State’s DBE directory. Certification file reviews
would have been the only way to detect that the firm was no longer DBE-eligible.

Since much of the Operating Administrations’ DBE oversight is carried out at the
regional and division level, the Department’s lack of clear guidance on Operating
Administrations’ responsibilities results in inconsistent oversight of recipients’
DBE implementation—both among the Operating Administrations and from State
to State. For example, the civil rights officer at FHWA’s Louisiana Division
Office has continual communication with Louisiana State’s highway
administration office and actively participates in both on-site compliance reviews
and certification reviews. In contrast, the civil rights officer at FHWA’s Maryland
Division Office has little contact with Maryland State’s highway administration
office and has not participated in on-site compliance reviews or certification
reviews.

Weak Recipient DBE Practices Increase Risk of Fraud and Improper
Payments for the DBE Program
The lack of standard Departmental guidance and training, and inconsistent
oversight by the Operating Administrations, has contributed to weaknesses in



33
   FY 2011 ARRA DBE Compliance Review Final Report of the Teterboro Airport, August 16, 2011.
34
   49 CFR Part 26.83(j) requires a DBE to provide annually, on the anniversary of its certification date, an affidavit
sworn to by the firm’s owner affirming that there have been no changes in the firm’s circumstances affecting its ability
to meet size, disadvantaged status, ownership, or control requirements of the regulation; and no material changes in the
information provided in its application form. Under 49 CFR Part 26.109(c), failure to provide this affidavit in a timely
manner will result in a determination of failure to cooperate.
                                                                                                                       17


recipient DBE certification practices and oversight. As a result, the DBE program
is exposed to significant risk of fraud, waste, and abuse.

Weak State Certification Practices Increase the Risk That Ineligible Firms
Will Be Certified as DBEs
States’ weak certification practices increase the risk that ineligible firms will be
certified or granted continued DBE certification. The States we visited do not
adequately verify that firms applying for DBE certification meet program
eligibility requirements or continue to meet these requirements to maintain
certification (see table 3).

Table 3. Summary of Key DBE Eligibility Requirements
A DBE firm owner                   •    be a socially and economically disadvantaged individual
must:
                                   •    have a personal net worth that does not exceed $1.32 million
                                   •    possess the power to control the firm’s management and policies

A DBE firm must be:                •    at least 51-percent majority owned by the socially and
                                        economically disadvantaged individual(s)
                                   •    an independent business and cannot depend on its relationship
                                        with other firms
                                   •    an existing small business and have average annual gross
                                                                                      35
                                        receipts that do not exceed certain size caps

Source: 49 CFR Part 26, Subpart D

Recipients did not always adequately verify DBE ownership or control eligibility.
From a sample of 121 statistically selected DBEs’ certification files, we identified
2 instances in which the firms were not eligible DBEs. 36 In our sample, which was
selected using a stratified probability proportional to size sampling methodology,
any instance in which a firm does not meet DBE eligibility requirements is
significant. In one instance, the DBE owner was deceased, 37 and the new owner’s
majority ownership and control was not established and ultimately denied. These
ineligible firms received a total of $5.4 million in DBE awards and payments.38
Because the firms did not meet DBE eligibility requirements, the $5.4 million in
fiscal year 2009 awards and payments may have been improper payments. Based
on these findings, we estimate that $124 million of the $4.1 billion in DBE funds

35
   For example, firms may not exceed an overall DOT-specific cap, which is currently $22.41 million.
36
   We reviewed a statistical sample of 121 out of 1,461 certification files from our 6 statistically selected sample States.
The 1,461 certification files represent the universe of all DBEs working on active federally funded contracts in the 6
sample States during the time of our audit.
37
   A firm’s original owner died, and the firm was never recertified under the new owner due to questions surrounding
her control and expertise. However, the firm was never removed from the State’s certified DBE directory.
38
   The $5.4 million was out of a total of $45 million in awards and payments made to the 121 firms included in our
sample for fiscal year 2009.
                                                                                                                   18


distributed across 52 U.S. States and territories 39 in fiscal year 2009 40 could have
been put to better use if DOT and its recipients had implemented better internal
controls over their certification processes. 41 We found several specific weaknesses
in recipients’ certification practices, as follows:

Personal Net Worth (PNW): Certification staff in five of the six States we
visited reported that they are unsure how to accurately calculate or verify a firm
owner’s PNW. As a result, staff could certify unqualified firms. For example, we
found that New York State granted DBE certification to a firm even though the
owner’s PNW exceeded the DBE eligibility threshold by $570,000. However, the
owner claimed a $600,000 unpaid tax liability, lowering her PNW to $30,000
below the PNW eligibility threshold. 42 The State continued to recertify the firm
even though the DBE did not consistently submit required annual affidavits of no
change. In addition, we question whether significant unpaid taxes are valid
liabilities when computing PNW. 43

Majority-Owned by Socially or Economically Disadvantaged Individual: State
certification staff did not always perform third-party checks for related affiliates,
duties of key controlling officials, and financial capabilities to verify ownership
and control information reported by firms seeking DBE certification. These checks
could help detect whether a firm is fraudulently alleging to be a qualified DBE.
OIG investigators have convicted DBE owners of falsifying documentation to gain
DBE certification. 44 In addition, we identified a DBE applicant in the District of
Columbia who claimed to be a firm president but actually was the vice president
who owned only 5 percent of the company. The firm did not meet the eligibility
requirements according to the DBE regulations, yet was certified as a DBE.
Certification staff could have detected this misrepresentation of ownership if they
had verified firms’ ownership and key controlling official information using
commercial databases.



39
   The universe included Puerto Rico but did not include the Virgin Islands because it did not report DBE expenses in
fiscal year 2009.
40
   We based our projections on fiscal year 2009 amounts because these were the most current and complete data the
Department was able to provide at the onset of our audit.
41
   Our estimate has an actual lower limit of $5 million and a 90-percent upper confidence limit of $329 million, with a
best estimate of $124 million.
42
   49 CFR Part 26.67(2)(i) states the PNW cap for DBE eligibility was $750,000 for firms seeking eligibility prior to
the January 2011 Final Rule, which increase the PNW to $1.32 million.
43
   In September 2012, the Department issued a Notice of Proposed Rulemaking proposing a new PNW statement along
with an accompanying instruction sheet for program application and continued certification.
44
   In 2006, a New York DBE owner pled guilty to obtaining DBE certification by submitting false corporate tax returns
and other phony documentation, which allowed the firm to win a $7.8 million DBE subcontract that her husband’s non-
DBE companies actually completed. The owner and the husband were sentenced to 15 months in prison and ordered to
pay $12,500. In another case, a Massachusetts DBE firm owner that had worked on five federally funded contracts,
valued at approximately $42 million, pled guilty to falsifying corporate tax returns to maintain DBE eligibility. The
DBE firm was debarred from Federal contracting for 3 years.
                                                                                                                   19


Independence From Related Non-DBE Firms: To ensure eligibility, DBE
regulations require State certifying agencies to scrutinize firms’ relationships with
non-DBE firms to verify independent control. In addition, the regulations state that
certification staff evaluating a firm’s independence may consider whether a firm’s
pattern of conduct indicates attempts to evade or subvert the program. However,
certification staff did not always perform these verifications or did not perform
them sufficiently to verify independence and control. We identified five instances
in which the DBE did not appear to have clear control of its operations due to a
potential lack of independence. Two of the five instances included:

• A Louisiana agency ultimately certified a DBE firm that had a history of
  switching names on key business documents from the father, a non-DBE, to
  the daughter, who was DBE-eligible. OIG investigations have led to
  convictions of firm owners for similar attempts to defraud the DBE program. 45

• One New York certification manager did not respond to an anonymous letter
  alleging that a DBE firm owner was not the actual majority owner and that the
  DBE has common ownership with two other firms using different names to
  skirt DBE size standards. The certification manager said there was no way he
  could follow up on it because the letter was anonymous and simply placed the
  letter in the certification file. The firm remains a certified DBE.

No-Change Affidavits: States’ certification staff frequently do not enforce the
requirement that certified DBE firms submit annual affidavits of no change, which
disclose whether there have been any changes that would affect firms’ ability to
continue to meet DBE eligibility requirements. 46 We determined that 74 of the
121 DBE firms’ certification files in our 6 sample States were missing some or all
of these required annual affidavits. For example, a certification file for a District
of Columbia DBE certified since 1996 included only one affidavit for fiscal year
2010.

From our statistical sample of 121 DBEs’ certification files, we identified 20 firms
that did not submit required annual affidavits in fiscal year 2009. Yet these firms
received DBE contract awards and payments totaling nearly $4.4 million during
that year. Based on these results, we estimate that $101 million of the $4.1 billion


45
   In 2012, an OIG investigation resulted in the conviction of an Illinois firm owner on a mail fraud charge in
connection with a scheme to use a front DBE on Government contracts. From about 1999 until about May 2006, the
firm owner operated and controlled the operations of another company, a false front DBE company. The owner used
the front company to wrongly obtain more than $2.3 million in Government contracts where a DBE was required.
46
   The affidavit affirms that there have been no changes in the firm’s circumstances affecting its ability to meet size,
disadvantaged status, ownership, or control requirements; and no material changes in the information provided in its
application form. The affidavit specifically affirms that the firm continues to meet SBA business size criteria and the
overall gross receipts cap, documenting this affirmation with supporting documentation of the firm’s size and gross
receipts.
                                                                                                                   20


in DBE funds distributed in fiscal year 2009 were unsupported. 47 These
unsupported funds occurred because DOT and recipients allowed firms to remain
certified without enforcing the requirement that firms must submit the annual
affidavits ensuring continued good standing with regulatory requirements.

On-Site Certification Reviews: State certification staffs do not always conduct
updated on-site certification reviews at regular intervals to verify DBEs’ continued
eligibility. During an on-site review, certification staff will perform steps such as
visit the office of the applicant firm, interview the principal officers, review the
equipment and licenses of the firm, and visit an actual job site to ensure the firm
can perform the work it seeks to do in the DBE program. The regulations require
certification staff to perform on-site certification reviews to determine firms’
eligibility but do not specify definitive intervals for how often to conduct these
reviews. For example, Utah DOT certification staff only conducts on-site
certification reviews for initial applicants, while Illinois DOT certification staff
conducts on-site certification reviews every 5 years. In our review of 106 DBE
certification files, 48 we found 43 cases in which the State certification staff
performed their most recent on-site certification visits over 5 years ago—9 of
which performed their most recent on-site visit over 10 years ago. In the January
2011 Final Rule, the Department asserted that regular on-site certification reviews
are an extremely important tool to help recipients prevent fraudulent firms or firms
that no longer meet eligibility requirements from participating in the DBE
program. However, the Department did not establish definitive time intervals for
conducting on-site certification reviews.

Recipients Do Not Conduct Sufficient Oversight of DBEs at Job Sites
Job site monitoring is necessary to ensure that a DBE is performing the work
identified in the contract, rather than acting as a “front company” for an ineligible
firm performing the work. However, most of the recipients at the six States we
visited did not effectively monitor or document DBE contractual performance at
project sites. In addition, OIG investigative results provide examples of lack of
effective job site monitoring and oversight, such as in April 2012 when a co-owner
of a large concrete pre-cast company was convicted of conspiracy, mail fraud,
wire fraud, and money laundering. The company had used a certified DBE as a
front company to obtain DBE subcontracts. The concrete company performed the
work but allowed the certified DBE to keep a cut of the payments. The DBE fraud
was conducted over a 15-year period and allowed the company to win over
$136 million in fraudulent DBE subcontracts on 340 federally funded highway
and transit construction projects performed throughout Pennsylvania.

47
   Our estimate has an actual lower limit of $4 million and a 90-percent upper confidence limit of $231 million, with a
best estimate of $101 million.
48
   For our statistical sample of 121 DBE certification files, we did not document site review dates for the 15 files we
reviewed at our first sample state visit at the District of Columbia.
                                                                                     21


In an effort to improve recipient monitoring, the Department added additional
post-award oversight requirements in its January 2011 Final Rule. Recipients must
now perform job site compliance monitoring for all ongoing DBE projects. One
way recipients can implement the new job site compliance rule is to increase
coordination between DBE compliance staff and job site district engineers. To
varying degrees, State DBE compliance officers already rely on staff located at
construction sites for DBE oversight. However, construction employees do not
necessarily focus—and in some cases are not fully trained—on DBE compliance
because of their other responsibilities. Compliance officers from only 3 of
14 49 States reported regular interaction with job site construction staff. This lack of
oversight at DBEs’ job sites can allow fraud to go undetected for years.

Weaknesses in State certification and project oversight are evident in the results of
our DBE fraud investigations. In fiscal years 2010 and 2011 alone, OIG
investigators uncovered a significant amount of DBE fraud, leading to over
$88 million in recoveries, restitutions, and fines—along with 10 indictments and
8 criminal convictions.

Recipients’ Staffing Issues Contribute to Certification and Compliance
Monitoring Weaknesses
Many recipient agencies are understaffed. While DBE regulations require that
each recipient have “adequate staff” to administer their program, 10 of the 15
States we randomly sampled reported that they do not have enough staff to
perform all duties adequately. For example, due to staffing limitations, New York
completes formal compliance reviews for only 20 of its approximately 500 active
DBE highway projects. The District of Columbia DOT did not have any DBE staff
to monitor DBE compliance until it hired a contractor in 2010. As a result, the
agency did not perform compliance checks or monitoring prior to hiring the
contractor in 2010.

In addition, recipients’ DBE liaison officers do not oversee complete program
implementation. The DBE regulations require each recipient agency to have a
DBE liaison officer who is responsible for implementing all aspects of the
program. 50 We found that 9 of the 15 States reported that their DBE liaisons do
not directly oversee all aspects of their programs. For example, Oregon DOT’s
DBE liaison does not directly oversee the compliance staff, who report to the
construction office. In addition, Oregon’s sole certification office for the entire
State is located in a completely different agency from that of the DBE liaison,
making it difficult for the DBE liaison to be aware of certification issues.


49
     One out of the 15 states we contacted did not respond to this question.
50
     What is the requirement for a liaison officer, 49 CFR § 26.25.
                                                                                  22


THE DEPARTMENT HAS LIMITED SUCCESS IN ACHIEVING ITS
PROGRAM OBJECTIVE TO DEVELOP DBE FIRMS
The Department has limited success in achieving its program objective to develop
DBEs to succeed in the marketplace because recipients place more emphasis on
getting firms certified as DBEs rather than assisting them to identify opportunities
and market themselves for DBE work on federally funded projects. In addition, the
Department does not require recipients to actively track or report utilization data
showing the number of DBEs actually receiving work on federally funded DBE
projects. As a result, the Department has no way to measure achievement of this
program objective. Moreover, unlike SBA’s 8(a) small business development
program, the DBE program does not have a term limit on participation, so there is
little incentive for firms to grow beyond the program.

Recipients Do Not Adequately Develop DBE Firms To Succeed in the
Marketplace
One of the Department’s DBE program objectives is to help DBE firms succeed in
the marketplace. The responsibility to develop DBE firms lies with the recipients
who implement the DBE programs in each State. However, recipients focus most
of their efforts on helping firms complete the lengthy DBE certification process,
leaving few resources in place to help certified firms obtain DBE work on
federally funded projects. As a result, State DBE officials stated that certified DBE
firms are not sure how to market themselves or identify work opportunities.
Without contract work, DBEs cannot grow and develop their businesses to be able
to compete outside the program. For example, Maryland has a large database of
almost 5,000 eligible DBE firms, but only 560 firms (12 percent) have ever
received work as a subcontractor or prime contractor of a federally funded project.

In addition, even though the DBE program has been in place for over 30 years, the
Department does not require its recipients to track or report on DBE utilization—
that is, how many certified firms actually receive DBE work on federally funded
contracts. Tracking and monitoring DBE utilization data could help the
Department regularly assess the program’s performance toward achieving its goals
and motivate recipients to allocate resources toward developing DBE firms to
succeed in the marketplace.

The majority of DBE firms in the six sample States we visited have not
successfully obtained federally funded contracts. Less than 20 percent of certified
DBEs in the 6 sample States have received DBE work on a federally funded
project (see table 4).
                                                                                                                   23


Table 4. DBE Utilization Rates for Six Sample States51
                                        DBE That Have                      Number Of                DBE Federal
     Sample States                  Received DBE Work                  Certified DBEs            Utilization Rate
1    Maryland                                             560                       4,863                    11.5%

2    New York                                             514                       1,370                    37.5%

3    Oregon*                                              166                         480                    34.6%

4    Kansas*                                               62                         205                    30.2%

5    Louisiana                                            219                         771                    28.4%

6    District of Columbia**                                  -                            -                         -

     Total Utilization                                 1,521                        7,689                    19.8%

*    The aviation agencies in Oregon and Kansas were unable to provide utilization data because they do not have a
     system in place to track this information.
**   The District of Columbia could not provide utilization data because it had only recently begun to track this data.
Source: OIG analysis of DBE utilization data submitted by the six sampled States

Smaller DBE firms often have difficulty competing for contracts. Larger DBE
firms win more contracts because they tend to develop relationships with prime
contractors when they demonstrate they can perform the work. For example, of
Maryland’s 560 DBEs that received awards through the DBE program, 4 firms
consistently win the most contracts—over 100 contracts each, for a total of
609 contracts. In contrast, 202 of those 560 Maryland DBEs have won only 1 DBE
contract since becoming certified.

The regulations state that a recipient may or, if an Operating Administration
directs it to, must establish a DBE business development program (BDP) 52 to
assist firms in learning to compete successfully outside the DBE program.
However, due in part to limited resources, recipients place less priority on BDPs
because they are optional program elements. In addition, the Operating
Administrations and recipients would find it difficult to know when a firm needs a
BDP because the Department does not require them to collect data on DBE
utilization.

Due to the competitive advantages a successful DBE gains from the program,
there is little incentive for firms to grow beyond the DBE program. Unlike the
SBA’s 8(a) small business development program, DOT’s DBE program does not
have a term limit on participation. For example, 59 of the 121 DBEs we reviewed

51
   We did not factor in State and locally funded contracts when determining utilization.
52
   The purpose of a BDP is to further the development of DBEs, including but not limited to assisting them to move
into nontraditional areas of work and/or compete in the marketplace outside the DBE program, via the provision of
training and assistance from the recipient.
                                                                                 24


were first certified over 10 years ago. State officials reported that some DBE firms
deliberately limit the amount of new contract dollars they receive in order to stay
below the average annual gross receipt cap of $22.41 million required for DBE
eligibility. 53

Some DBEs that have been in the program for over 10 years have received little to
no DBE contract work since being certified. For example, in Oregon, 53 out of the
96 currently certified highway DBE firms (55 percent) were first certified over
10 years ago—13 have been certified since the 1980s. Yet, 24 of those 53 firms
(45 percent) have received 5 or fewer contracting opportunities as a DBE.

CONCLUSION
DOT has spent billions of dollars through its DBE program to remedy past and
current discrimination against socially and economically disadvantaged
individuals competing for federally assisted projects. However, weaknesses in
DBE program management and implementation have allowed ineligible firms to
win DBE contracts and have left the majority of DBE firms without work. The
Department’s fragmented DBE program management structure can only be
effective if Operating Administrations and recipients are offered clear DBE
guidance and training with which to implement the program. Because the
Department’s DBE guidance and training is not sufficiently comprehensive, it
must take a more proactive oversight approach to ensure that recipients comply
with DBE regulations and make progress toward achieving DBE program goals. If
the Department does not provide more comprehensive guidance and training or
strengthen its program management, the DBE program may continue to be
exposed to billions of dollars in fraud, waste, and abuse.




53
     What rules govern business size determinations, 49 CFR § 26.65.
                                                                                25



RECOMMENDATIONS
We recommend that the Office of the Secretary:

1. Develop comprehensive guidance and best practices for DBE program
   implementation by involving DBE stakeholders from all levels. The guidance
   should provide direction for conducting certification processes, certification
   reviews, and on-site project reviews.

2. Formally assign one Department office the responsibility and accountability
   for integrating and managing the DBE program.

We recommend that the accountable DBE lead program office or the Office of the
Secretary:

3. Develop program performance measures to regularly assess the DBE program
   and evaluate whether it is achieving its objectives;

4. Establish a centralized Departmental data system for collecting and tracking
   DBE commitment and award information and require that the Operating
   Administrations implement procedures to ensure that recipients are accurately
   reporting DBE award and other financial information.

5. Maintain the Department’s DBE Web site to ensure it contains current
   information and includes accurate DBE program contact information;

6. Develop an oversight and compliance plan with the Operating Administrations
   to identify specific, required oversight processes and reviews and ensure that a
   sufficient number of reviews are performed based on assessed risk;

7. Require that recipients track and regularly report utilization data to the
   Operating Administrations, including each DBE’s number of years in the
   program and the number of DBE subcontracts or prime contracts received
   since first becoming certified; and

8. Require that the Operating Administrations work with recipients to develop
   ways to improve utilization rates and require the establishment of Business
   Development Programs for firms that have not received DBE work for several
   years.
                                                                                 26



AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OST with our draft report on November 2, 2012, and received its
response on March 18, 2013. OST’s complete response is included as an appendix
to this report. While OST either concurred or partially concurred with all eight of
our recommendations, it raised concerns that our findings are based primarily on
the opinions of State officials without detailed or causal analysis. We disagree.
Our findings are based on evidence from multiple sources including extensive data
collection and analysis from State and local recipients, as well as interviews with
multiple stakeholders. For example, we analyzed data from 15 statistically selected
States, which received $2.4 billion in DBE participation amounts—or 59 percent
of the total universe for fiscal year 2009. We also analyzed the certification files
for 121 randomly selected DBE firms and 18 randomly selected DBE contracts
including aviation, transit, and highways. Further, we collaborated with OIG
investigators who have recovered millions of dollars in Federal funding lost to
DBE fraud and who shared their first-hand knowledge of the DBE oversight
weaknesses that allow such fraud to occur.
For recommendations 4 and 5, OST either concurred or partially concurred, and
presented reasonable timeframes and planned actions that meet the intent of our
recommendations. Accordingly, we consider these recommendations resolved but
open pending completion of the planned actions.
For recommendation 2, OST concurred stating that it plans to issue a departmental
order designating the Secretary and Deputy Secretary with overall accountability
and decision-making responsibility for the DBE program. OST also stated that the
order will build upon the existing approach to program management but that it will
specify the roles, relationships, and functions among the OST offices leading the
program. However, our audit findings indicate that the current management
approach is ineffective and that the OST offices leading the program are not fully
carrying out their delegated responsibilities. The proposed actions meet the intent
of our recommendation, and we consider this recommendation resolved. However,
the recommendation remains open pending completion of the planned
departmental order that establishes a decision-making framework for day-to-day
management along with controls for holding lead offices accountable for fulfilling
their delegated responsibilities. Since the Department does not plan to issue the
order until March 1, 2014, we request that the Department provide us with an
interim plan for implementing a decision process for the program.
For recommendations 1, 3, and 6, OST either concurred or partially concurred.
However, we are requesting additional information before we can determine if the
actions planned address the intent of these recommendations. Specifically:
                                                                                                       27


For recommendation 1, OST partially concurred, stating that its DBE regulations
in 49 CFR 26 are the definitive and primary source of guidance for the program.
However, in defining what constitutes guidance, DOT has clarified that
“guidance” refers to non-legislative rules (not legally binding regulations)
intended to provide interpretations or policy statements. 54 OST also stated that the
Q&As posted on OSDBU’s Web site provide useful supplemental guidance. Our
review, however, determined that neither the DBE regulations nor the Q&As
provide recipients with the full guidance they need, particularly when certifying
DBE firms and conducting oversight at project sites. OST stated that DOT
initiated a new training program in February 2013 that provides guidance on the
DBE certification process. We agree that the new program focuses on certification
guidance, but it does not provide comprehensive guidance for other program
elements, such as on-site project compliance reviews, which we also determined
was needed. In addition, the training program is targeted to certification staff, not
all staff responsible for implementing the DBE program. Further, OST has not
made the training materials available on the Department’s Web site. Accordingly,
we are requesting that OST provide us with additional information clarifying
whether it will (1) create training guidance for on-site project compliance reviews,
(2) offer training programs for all staff involved in the DBE program, and (3) post
training materials on the Department’s Web site. Until we receive this
information, we consider recommendation 1 open and unresolved.

For recommendation 3, OST concurred but stated that performance measures have
been in place for some time. However, OST’s response refers to measures that
address whether recipients meet the Department’s goal to allocate 10 percent of
authorized funds to DBEs. The intent of our recommendation is for OST to
evaluate its progress against the seven DBE program objectives established in 49
CFR 26.1, which are separate from the 10-percent goal. Accordingly, we are
requesting that OST specify what performance measures it plans to develop that
will link to the seven DBE program objectives. Until we receive this information,
we consider recommendation 3 open and unresolved.

For recommendation 6, OST partially concurred, stating that it is incumbent on
each Operating Administration to determine the appropriate DBE oversight
activities and to focus their limited resources on the greatest risk areas. While we
agree that Operating Administrations should have the flexibility to tailor oversight
to the unique risks of each State, the intent of our recommendation is to ensure that
their oversight is sufficient. OST states that the DBE Task Force will “seek to”
identify oversight minimum requirements and document specific actions needed to
ensure each Operating Administration is providing adequate oversight and will
determine whether DOCR needs to enhance or modify its practices in this regard.

54
 DOT Web site, “Background on Guidance” <http://www.dot.gov/regulations/background-guidance>, and “Types of
DOT Guidance” <http://www.dot.gov/regulations/types-dot-guidance>.
                                                                                                     28


However, the Department’s delegation of powers and duties in 49 CFR 1
specifically assigns DOCR responsibility to provide guidance and periodically
evaluate the Operating Administrations’ enforcement and implementation of the
program. Since our audit determined that DOCR was not carrying out these
delegated responsibilities, the Department needs to clarify how DOCR will do so.
Accordingly, we are requesting that OST (1) require that the DBE Task Force
identify and document the minimum oversight requirements and specific actions
the Operating Administrations must take when overseeing the program and (2)
specify the required actions DOCR must take to fulfill its delegated responsibility
to provide guidance and periodically evaluate the Operating Administrations’
enforcement and implementation of the program. Until we receive this
information, we consider recommendation 6 open and unresolved.

For recommendations 7 and 8, OST partially concurred, but its planned actions do
not meet the intent of our recommendations. Specifically:

For recommendation 7, OST partially concurred, stating that it is updating its data
gathering requirements in its recent Notice of Public Rulemaking (NPRM). OST
acknowledges that the NPRM does not address DBE utilization data but states that
it is considering requiring utilization tracking in future rulemakings. Without
utilization data, however, OST cannot evaluate whether it is achieving its
regulatory DBE program objectives to create a level playing field on which DBEs
can compete fairly or assist in the development of DBE firms to compete
successfully in the marketplace. 55 We found that, while recipients spend
considerable resources to certify DBE firms, most certified DBEs never receive
work on Federal projects. Additionally, Congress has recently raised concerns
about DBE utilization. 56 Accordingly, we request that OST reconsider its position
and either (1) commit to adding the requirement for DBE utilization data
collection in a future NPRM or (2) clarify how it measures whether the
Department is meeting its stated program objectives to create a level playing field
and develop DBEs to compete outside the program. OST also proposed a target
date of December 31, 2014, to determine whether to require utilization tracking in
future rulemakings; since this date is only a date to make a determination, it is not
a timely completion date to address our recommendation. We consider
recommendation 7 open and unresolved.

For recommendation 8, OST partially concurred, stating that it is not at the point
where it can agree to require the establishment of BDPs. Instead, OST plans to
task the DBE working group to determine whether efforts to improve utilization
warrant attention, and if so, if there are existing approaches to encourage

55
  49 CFR § 26.1(b) & (f).
56
  As part of the FAA Modernization and Reform Act of 2012, Congress has directed OIG to report on new DBE
participation at the Nation’s airports.
                                                                                 29


recipients to expand utilization. However, the DBE regulations already grant
Operating Administrations the authority to require that recipients establish BDPs
and encourage other mentor-protégé programs. Furthermore, a key DBE program
objective is to help develop DBEs so they can compete outside the program. We
request that OST clarify how it will require the Operating Administrations to work
with recipients to develop ways to improve utilization rates for firms that have not
received DBE work for several years. OST proposed a target date of December 31,
2014, to determine whether and how to proceed in this area; since this date is only
a date to make a determination, it is not a timely completion date to address our
recommendation. We consider recommendation 8 open and unresolved.

ACTIONS REQUIRED
OST’s planned actions and timeframes for recommendations 2, 4, and 5 are
responsive, and we consider them resolved but open pending completion of the
planned actions. We consider recommendations 1, 3, 6, 7, and 8 open and
unresolved. In accordance with Department of Transportation Order 8000.1C, we
request that OST provide additional information regarding their planned actions
for recommendations 1, 3, 6, 7, and 8, as described above, within 30 days of this
report. We also request that OST submit revised completion dates for
recommendations 7 and 8. In addition, we request that OST, within 30 days,
provide us with an interim plan for implementing a decision process for the
program until its planned Departmental order is completed. We appreciate the
courtesies and cooperation of DOT representatives during this audit. If you have
any questions concerning this report, please call me at (202) 366-1959; Mary Kay
Langan-Feirson, Assistant Inspector General for Acquisition and Procurement
Audits, at (202) 366-5225; or Terry Letko, Program Director, at (202) 366-1478.
                                         #

cc: DOT Audit Liaison, M-1
   FAA Audit Liaison, AAE-100
   FHWA Audit Liaison, HAIM-13
   FTA Audit Liaison, TBP-30
                                                                                                                30



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from April 2011 through October 2012 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our audit scope included (1) the Department’s Office of the Secretary’s OSDBU,
OCR, and OGC; (2) FHWA, FAA, and FTA (the three primary Operating
Administrations that participate in the DBE program), including their division and
regional offices; and (3) 15 randomly selected U.S. States using 2 distinct samples.
We assessed each organization level’s implementation of the DBE program to
determine whether program management, oversight practices, and internal controls
were adequate to ensure effective utilization of DBE funds to meet the program’s
objectives. This assessment included interviewing DBE managers and employees,
reviewing written DBE policies and guidance, and determining the extent of
interaction with other organizational levels involved in the DBE program. We
based our assessment on DBE regulations contained in 49 CFR Part 26—but not
on the January 2011 Final Rule, which came into effect after the scope of our
review, nor on 49 CFR Part 23, which focuses on airport concessions.

Our statistical sampling plan relied on DBE participation amounts reported for
fiscal year 2009, as these were the most current and complete data that the
Department could provide at the beginning of the audit. We deemed these data
sufficiently accurate for the purpose of our audit. We drew 2 distinct statistical
samples to randomly select 15 out of the 52 U.S. States and territories 1 that
participated in the DBE program: (1) a random sample of 6 States we visited and
(2) a random sample of 9 additional States that we surveyed.

We used a stratified probability proportional to size sample to randomly select
6 States. To select this type of sample, we first stratified the universe of 52 States
and territories into three tiers—“good,” “bad,” or “unknown”—based on OIG
investigators’ assessments of the States’ DBE programs. We then selected two
States from each tier using probability proportional to size, where the probability
of selection was proportionate to the State’s total fiscal year 2009 DBE
participation amount. This type of sample gave States with larger total DBE
participation dollars a greater chance of selection, while giving every dollar in the
universe an equal chance. The six selected States and territories were the District
of Columbia, Maryland, New York, Oregon, Louisiana, and Kansas. The States’

1
  The universe included Puerto Rico but did not include the Virgin Islands because it reported no DBE funds expended
in fiscal year 2009.


Exhibit A. Scope and Methodology
                                                                                                                        31


fiscal year 2009 DBE participation amounts add up to $1,079,192,875—or
27 percent of the $4,068,125,337 nationwide total.

At each of these six States, we interviewed State officials, reviewed randomly
selected DBEs’ compliance files, and reviewed randomly selected DBE contracts
to assess States’ DBE oversight practices. Specifically, we reviewed a sample of
121 DBEs’ certification files randomly selected from a universe of all 1,461 DBEs
working on active, federally funded contracts for the 6 States during our audit. 2
Based on the results of our review, we projected the amount of unsupported funds
and funds that could have been put to better use. 3 In addition, at each of the six
sample States, we reviewed a transit contract, highway contract, and aviation
contract with either a DBE subcontractor or DBE prime contractor that we
randomly selected from the State’s universe of active, federally funded DBE
contracts.

To capture a broader scope of State DBE practices nationwide, we surveyed
9 States randomly selected from the remaining 46 U.S. States and territories in our
universe. We used the same stratified probability proportional to size sampling
method used to select the six-State sample. The nine data call States include
Washington, Utah, Florida, California, Illinois, Wisconsin, Pennsylvania, Texas,
and Arkansas. The States’ fiscal year 2009 DBE participation amounts add up to
$1,321,999,218—or 33 percent of the $4,068,125,337 nationwide total. With these
2 State samples, our audit work covered $2,401,192,092—or 59 percent of the
total DBE participation amount for fiscal year 2009.

Throughout the audit, we collaborated with OIG investigators who have worked
extensively with DBE fraud cases. We also reviewed recently closed DBE fraud
cases and DOT OIG hotline complaints for potential fraud in our sample States.
These investigative reviews helped us to determine DBE process weaknesses that
allowed fraud to occur.




2
  The number of DBEs’ certification files selected from each State was determined by the State’s proportion of the total
universe.
3
  We projected with 90-percent confidence and a precision no greater than 5 percent of the fiscal year 2009 DBE
distribution to all 52 U.S. States and territories in our universe. The precision for the projections is so large because the
unsupported funds or funds that could have been put to better use varied widely by firm, from $0 to $5 million. Sixty-
six of the 121 sampled firms (55 percent) had $0 amounts because they did not receive any DBE payments or awards in
fiscal year 2009.


Exhibit A. Scope and Methodology
                                                                                   32



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED
Office of Small and Disadvantaged Business Utilization
Office of Civil Rights
Office of General Counsel
Federal Highway Administration
Federal Transit Administration
Federal Aviation Administration
Contact through site visits:
       Office of Civil Rights, District of Columbia
       Maryland Department of Transportation, Hanover, Maryland
       State Highway Administration, Baltimore, Maryland
       Maryland Transit Administration, Hanover, Maryland
       Maryland Aviation Administration, Hanover, Maryland
       Oregon Department of Transportation, Salem, Oregon
       Oregon Tri-Met, Salem, Oregon
       Oregon Aviation Administration, Salem, Oregon
       New York State Department of Transportation, Albany, New York
       Port Authority New York and New Jersey, Manhattan, New York
       Metropolitan Transit Authority, Manhattan, New York
       Department of Transportation and Development, Baton Rouge, Louisiana
       Louis Armstrong New Orleans International Airport, New Orleans, Louisiana
       Regional Transit Authority, New Orleans, Louisiana
       Kansas Department of Transportation, Topeka, Kansas
Contact through DBE Liaisons for data call:
       Department of Transportation, Washington
       Department of Transportation, Utah
       Department of Transportation, Florida
       Department of Transportation, California
       Department of Transportation, Illinois
       Department of Transportation, Wisconsin
       Department of Transportation, Pennsylvania
       Department of Transportation, Texas
       State Highway and Transportation Department, Arkansas




Exhibit B. Acti vities Visited or Contacted
                                                              33



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Terrence Letko                          Program Director

Anthony Wysocki                         Program Director

Ann Wright                              Project Manager

Jill Cottonaro                          Senior Analyst

Meredith Howell                         Analyst

Patti Lehman                            Auditor

Christina Lee                           Writer-Editor

Nick Coates                             Legal Counsel

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician




Exhibit C. Major Contributors to This Report
                                                                                               34



APPENDIX. AGENCY COMMENTS
                     THE DEPUTY SECRETARY OF TRANSPORTATION
                                     WASHINGTON, D.C. 20590

                                                 March 18, 2013

MEMORANDUM TO:                  Calvin L. Scovel III
                                Inspector General

FROM:                           John D. Porcari
                                Deputy Secretary

SUBJECT:                        Office of Inspector General Draft Report on the
                                Department’s Disadvantaged Business Enterprise Program


The Disadvantaged Business Enterprise (DBE) Program Serves a Vital Need

The DBE program was designed as a vehicle to combat discrimination and its continuing effects
by providing opportunities for small businesses owned and controlled by socially and
economically disadvantaged individuals to fairly compete for federally-assisted state and local
transportation-related contracts. Within the Department, under the leadership of the Secretary and
the Deputy Secretary, three entities in the Office of the Secretary (OST) – the Office of General
Counsel (OGC), the Office of Civil Rights (OCR), and the Office of Small and Disadvantaged
Business Utilization (OSDBU) -- provide leadership and direction to the three primary DOT
operating administrations – the Federal Highway Administration (FHWA), the Federal Transit
Administration (FTA), and the Federal Aviation Administration (FAA) -- involved in overseeing
administration of the DBE program by state and local entities that are the recipients of federal
funding. One primary measure used to assess the extent to which the program objective has been
achieved is the proportion of federally-assisted contract funding awarded to DBEs. In fiscal year
2011, DOT grant and formula funds resulted in over $41.6 billion in contracting and
subcontracting opportunities. Thanks to the DBE program, small and disadvantaged businesses
were able to successfully compete for contracting valued at more than $4.4 billion, exceeding the
10 percent national aspirational goal for total DOT assisted contracting.

This Administration has striven to ensure that the DBE program effectively fulfills its statutory
mandate. In 2011, the Department made substantial changes to the DBE program to improve
program administration. Specific changes increased accountability for recipients with respect to
meeting overall goals, modified and updated certification requirements, expedited interstate
certification, and added new provisions to foster small business participation. The Department
increased the Personal Net Worth (PNW) limitation for DBE owners from $750,000, which was
set in 1989, to $1.32 million to account for the effect of inflation. The Department continues to




Appendix. Agency Comments
                                                                                                   35


listen closely to stakeholders and maintains an ongoing dialogue intended to assure the continued
effectiveness of the program. This includes addressing a number of technical and program
administration issues in a pending Notice of Proposed Rulemaking that was issued within the last
few months.

Comprehensive Guidance and Training are Available for the DBE Program

The primary source of comprehensive guidance for the DBE program is 49 CFR Part 26. The
regulation covers all aspects of program administration and is revised and updated as necessary to
strengthen, clarify, and improve program implementation based on experience acquired over the
years and input sought from the program’s many stakeholders. The rules are regularly
supplemented with official guidance in the form of questions and answers (Q&As) that address
practical application of the rules to real world situations and other issues raised by practitioners in
the field. The most recent revision to the rule published on January 28, 2011, resulted from a
series of roundtable discussions with stakeholders. Those discussions also led to the issuance of
additional Q&As. In September 2012, the Department issued a Notice of Proposed Rulemaking
that proposes further refinements in multiple areas, including certification related requirements
and performance measures. The Department will continue to engage in similar discussions with
stakeholders as one of many vehicles for identifying areas where additional guidance may be
appropriate.

Since the DBE program rule was substantially revised in 1999 to respond to constitutional
standards set by the courts, the DBE work group lead by the OGC, with representatives from
OCR, OSDBU, FHWA, FTA, and FAA, has developed, and continues to develop, additional
guidance as needed. There is a formal process within DOT to construct, review and approve this
supplemental guidance before it is published on the OSDBU DBE website. The DBE work group
coordinates the review of proposed Q&A guidance to ensure that it is consistent with applicable
statutes and regulations before the final version is submitted to the General Counsel.

Our analysis of this OIG draft report indicates that its findings with regard to the adequacy of
departmental guidance are based primarily on the opinion of a handful of state officials, without
apparent detailed causal analysis linking guidance and programmatic issues. While these opinions
are useful indicators of user community perceptions, they are not necessarily dispositive evidence
of specific deficiencies. However in response to the issues discussed in the OIG report the
Department will continue to review existing guidance and program implementation to determine
whether there are useful and cost effective means to make further improvements.

The Department recognizes that effective training is critical to the success of the DBE program.
Most of that training is conducted by the operating administrations responsible for ensuring
compliance with DBE program requirements and is often appropriately tailored to respond to the
specific needs of their respective recipients. The training provided is an important tool to help
ensure guidance is clear and well understood, and facilitates consistency among recipients in the
administration of the program.




Appendix. Agency Comments
                                                                                                  36


DOT Committed to Existing DBE Program Management Approach

The established OST management structure provides the leadership and oversight at the
departmental level necessary to assist the operating administrations and their recipients in
meeting the stated objectives of the DBE program delineated at 49 CFR § 26.1. However, we
recognize that continued success for the DBE program requires thoughtful innovation, clarity, and
good communication, and we are taking the steps necessary to achieve these objectives.

The Department has long been committed to a collaborative approach that makes the best use of
limited resources and assigns those with the greatest expertise to address key areas of the
program. Thus, individuals from the OSDBU focus on aspects of the program supporting DBE
development of business acumen. OGC provides leadership in the development of national DBE
program policy and in the provision of regulatory guidance. OCR, with its expertise in
investigations and compliance, focuses on certification appeals and internal oversight. This type
of structure enables the Department to avoid the necessity of hiring additional specialized staff
that could be required under alternative management approaches. In addition, the Secretary has
created a high-level DBE Task Force headed by my office to emphasize the importance of the
program and to facilitate greater collaboration, communication, and accountability among the
various DOT components responsible for discrete aspects of DBE program implementation and
oversight.

Moving forward, the Department intends to reinforce the management structure for the DBE
program by issuing a departmental order for the program clarifying that the Secretary and Deputy
Secretary have overall accountability and decision making responsibility for the DBE program.
Further, the order will clarify the roles and responsibilities of each of the OST offices with
management responsibility for the DBE program and the operating administrations.

Recommendations and Responses

Recommendation 1: Develop comprehensive guidance and best practices for DBE program
implementation by involving DBE stakeholders from all levels. The guidance should provide
direction for conducting certification processes, certification reviews, and on-site project reviews.

Response: Concur in part. The Department is committed to providing sufficient guidance to
ensure grantees implement the DBE program consistent with regulatory requirements. The
primary source of comprehensive guidance for the DBE program is 49 CFR 26, as updated
through the rulemaking process. As stated above, the regulation is the definitive source of
guidance for the DBE program including Certification Standards in Subpart D and Certification
Procedures in Subpart E. Based on continuing experience with the regulation, and input received
from various sources, the Department will continue to update the regulation to ensure its guidance
for recipients on DBE requirements is comprehensive and up-to-date. The updates to the CFR are
intended to build upon guidance and incorporate best practices in the specific requirements and in
the preamble to each rule.




Appendix. Agency Comments
                                                                                                   37


The Department also maintains useful supplemental guidance in the form of Questions and
Answers (Q&A’s) on the OSDBU DBE website to assist recipients and contractors in their efforts
to comply with the Department’s DBE requirements. As described above, there is a formal
process within DOT to construct, review and approve this supplemental guidance before it is
published. The Department is continuing to develop guidance in the form of additional Questions
and Answers (Q&As) that will assist recipients in understanding and applying the DBE program
rules, particularly with respect to the new rules that took effect in 2011, such as the rule
establishing a streamlined process for obtaining interstate certification, and other certification and
oversight issues including those identified in the OIG report.

Finally, the Department seeks to build upon best practices through enhanced certification training.
On February 15, 2013, DOT initiated a new training program that addresses all elements of the
certification process, including areas specifically mentioned in the OIG report, like evaluating
personal net worth information, conducting on-site certification reviews, detecting and preventing
fraud, and identifying best practices. This training helps to ensure guidance is clear and well
understood to assist recipients in the proper application of certification requirements. The process
used to develop this training included input from certifying entities in all 50 states and the District
of Columbia and has been reviewed by OST and the operating administrations. The training will
be delivered on-line and in-person. A refresher course, advanced training, and webinars are
planned for the future. To date, 168 individuals are taking the online training, representing 40
states, the District of Columbia, and Puerto Rico. In addition, FTA has posted on its website
training videos on basic DBE program requirements for those new to the program. We are
confident that the totality of existing guidance provided by the Department addresses the need
identified by the OIG in its report and request this recommendation be closed.

Recommendation 2: Formally assign one Department office the responsibility and
accountability for integrating and managing the DBE program.

Response: Concur. The Department will improve clarity and understanding of roles and
responsibilities by issuing a departmental order for the program by March 1, 2014. This order will
expressly state that the Secretary and Deputy Secretary maintain overall accountability and
decision making responsibility for the DBE program. Further the directive will specify the roles,
relationships and functions among the OST offices leading this program and the operating
administrations that are overseeing its implementation by recipients. The order will be structured
to recognize and build upon the synergies of the existing approach to program management.

Recommendation 3: Develop program performance measures to regularly assess the DBE
program and evaluate whether it is achieving its objectives.

Response: Concur. Performance measures have been in place for some time that address the
overall extent to which state goals are met. For example, the statutory 10 percent aspirational goal
at the national level is the quintessential performance measure for the DBE program. Overall, the
Department seeks to make use of the best available data to provide information on the extent to
which the program is achieving its goal of providing a level playing field on which DBEs can
complete fairly for DOT-assisted contracts. These measures were critiqued by the




Appendix. Agency Comments
                                                                                               38


Government Accountability Office (GAO) in 2011, and the Department, in its September 2012
Notice of Proposed Rulemaking (NPRM), proposed modifications to the data collection that may
address the issues raised by the GAO and improve performance measures for the program. As the
subject of ongoing rulemaking activity, the Department is working through this issue, with a goal
of issuing a final rule once our review is complete. The Department intends to identify, by March
1, 2014, other appropriate performance measures to gauge the overall effectiveness of the DBE
program recognizing the objectives set out in the rule.

Recommendation 4: Establish a centralized Departmental data system for collecting and
tracking DBE commitment and award information and require that the Operating Administrations
implement procedures to ensure that recipients are accurately reporting DBE award and other
financial information.

Response: Concur in Part. Each operating administration currently maintains information
relating to its implementation of the program to determine the extent to which recipients are
achieving the goals established in each state. Since the establishment of the DBE Task Force, the
operating administrations report monthly to the OSDBU on DBE participation data, enabling the
Department to gauge its performance in meeting the national, aspirational DBE participation goal.
Thus, the tracking and centralization of that data is already underway and the ongoing NPRM
contains efforts to further refine and improve that data. I intend to direct the DBE Task Force to
review existing data collection systems within the Department to determine whether they may be
used to track DBE data. As part of this review, the task force will assess whether operating
administrations have adequate systems in place to reasonably assure the accuracy of the data
reported, and whether additional guidance is needed in this regard. We anticipate completing this
action by March 1, 2014.

Recommendation 5: Maintain the Department’s DBE Web site to ensure it contains current
information and includes accurate DBE program contact information.

Response: Concur. OSDBU’s website hosts a DBE webpage that includes program background
information, official departmental guidance; and US DOT and state DOTs contact information.
OSDBU will ensure the DBE webpage is up-to-date and organized in a user friendly manner by
August 30, 2013, and review the information subsequently every 6 months to ensure it remains up
to date.

Recommendation 6: Develop an oversight and compliance plan with the Operating
Administrations to identify specific, required oversight processes and reviews and ensure that a
sufficient number of reviews are performed based on assessed risk.

Response: Concur in part. It is incumbent on each of the operating administrations to determine
the appropriate specific oversight activities commensurate with their implementation of the DBE
program. It is important that the operating administrations maintain sufficient flexibility in
program oversight to focus their limited resources on DBE program issues that each state has
identified as posing the greatest risk. For example, in any given year, DBE program concerns in
Alabama may differ significantly from program concerns in Minnesota. Any departmentwide
requirements for oversight must carefully balance the need for flexibility by operating




Appendix. Agency Comments
                                                                                                39


administrations with the potential benefit to be achieved through greater conformity. However,
we recognize the potential utility of examining the oversight activities performed by each of the
operating administrations, the type of risk assessment used, and issues surrounding
implementation to ensure that actions are consistent, effective and coordinated. The DBE task
force will seek to identify oversight minimum requirements, best practices, and document specific
actions needed to ensure each operating administration is providing adequate oversight. It will
also determine whether DOCR needs to enhance or modify its practices in this regard. We
anticipate completing this action by March 1, 2014.

Recommendation 7: Require that recipients track and regularly report utilization data to the
Operating Administrations, including each DBE’s number of years in the program and the
number of DBE subcontracts or prime contracts received since first becoming certified.

Response: Concur in part. The Department is in the process of updating its data gathering
requirements for recipients, as described in the pending NPRM. The proposed changes in the
NPRM offer the potential to improve the Department’s awareness of DBE achievements.
Tracking the number of years an entity is in the program and the number of subcontracts they
receive as a result of their participation is not a part of the NPRM. Nonetheless, the Department
will consider including the recommended action as a proposal in a subsequent rulemaking and
will make a determination prior to December 31, 2014, as to whether to move forward with this
proposal.

Recommendation 8: Require that the operating administrations work with recipients to develop
ways to improve utilization rates and require the establishment of Business Development
Programs for firms that have not received DBE work for several years.

Response: Concur in part. Although operating administrations work closely with recipients to
increase DBE participation in contract opportunities at the state level by providing training,
outreach events, and webinars, not all recipients have been able to meet their DBE goals.
Certainly, the Department would like as many DBEs as possible to benefit from the program by
providing capable and reliable services to the states. We note that some of the operating
administrations have been innovative in their attempts to improve the effectiveness of the DBE
program. For example, FHWA has a DBE Supportive Services (DBE/SS) Program in which
funds are apportioned to state departments of transportation to provide training, assistance, and
services to certified DBE firms for the purpose of improving their capacity and business acumen.
While we are not at the point where we can agree to require the establishment of business
development programs, we agree that it is important to ensure there is a sharing of best practices
in effectively implementing the DBE program across the Department. I intend to task the DBE
working group to determine whether this is an activity that warrants attention, and if so, whether
there are approaches available to encourage recipients to expand utilization to cast the widest
possible net with regard to the DBE program that would be appropriately implemented from a
departmental perspective. We intend to make a determination as to whether and how to proceed
in this area by December 31, 2014.




Appendix. Agency Comments
